                                                             Uniltd Stlltn Dt'pllr1mcnt or Stlltt

                                                             lIod the Brolldell$tinil BOllrd or Go,erno~


                                                             Offiu ofltuputor Gefl~t'IIl



                                                                               FEB 2 8 2f.OI




Ms. Janet K. Stormes
Chief Financial Officer
Broadcasting Board ofGo,'rnJOT!i
330 Independence AwnUC' SW. Room 3360
Washington. IX: 20237

Dear Ms. Stormes:

The management !eller related to the audit of the Broadcasting £Joan! of Governors (BOO) 2007
and 2006 financial statements (AUD/FM.QS.()6) is endosed. The letter was prepared by Leonard
G.Birnbaum lIIld Company. LLP (LGB). an independent eXlernal auditor. al the direclion oflhe
Office of Inspector General. The lcner discusses internal conlrol weaknesses that LOB idenlified
during ils audil of the financial statemenlS and makes recommendations in each case. These
weaknesses. ahhough of concern. did nOl rise 10 lhe level necessary 10 be included in lhe report
on the financiul Slatemenl audit. LGB included BIlG's comments 10 lhe dr.. fi managemenlleller
in Iheir enlirely as Alt:lchment 2 10 lhe Enelosure.

The Office of Inspeclor Gcneml will not track lhe rttommendalions made in the management
letler lhrough its formal compliance process. However.lhe financial statemenl auditors ",ill
e"aluale compliance during fulure audits Oflhe financial stalements,

If)ou ha"e any questions. please call me al (202) 66).QJ72. or ha\'e lour staff call Ga)le L
Voshell. Director of the Financial Management Division. at (703) 284-2681.

Sllll;erdy.




Mark W. Duda
Assistanllnspector General for Audits

Enclosure: As stated.

cc:	    Mr. Doug IknnetL Financial Ope-rations Director. Broadcasling Board ofGo\'cmon
        Ms. Quiana Kornegay. Audit Manager. Broadcasling Board ofGo\'emors
        Mr. Leslie A. Leiper. Leonard G. Birnbaum and Company. LLP




   "ddc... <uc",'pond•• « tu: U.s. n.p.rlm.nl or St.I•. om.. or In'p.do< G.....I. '" U~ln.tlOil. D.C. 20521-03Ot1
 Management Letter Related to the

           Audit of the

 Broadcasting Board of Governors

2007 and 2006 Financial Statements




     AUD/FM-08-06, February 2008




  Leonard G. Birnbaum and Company, LLP

        Certified Public Accountants

           6285 Franconia Road

        Alexandria, Virginia 22310

                          LEONARD G. BIRNBAUM                        AND     COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510


                                                       (703) 922·7622

                                                     FAX: (703) 922-8256


LESLIE A. LEIPER                                                                                         WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                   SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                      REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
                                                November 14,2007
DORA M. CLARKE




      To the Chief Financial Officer

      Broadcasting Board of Governors:


              Under generally accepted auditing standards, auditors are required to communicate, in
      writing to management, control deficiencies that, in the auditor's judgment, could adversely
      affect the entity's ability to initiate, authorize, record, process, or report financial data reliably in
      accordance with generally accepted accounting principles such that there is more than a remote
      likelihood that a misstatement of the financial statements that is more than inconsequential will
      not be prevented or detected. Auditors may also report, in a separate management letter, less
      material issues.

             In performing an audit of the Broadcasting Board of Governors (BBG) Financial
     Statements, as of and for the years ended September 30, 2007 and 2006 (AUDIFM-08-07), we
     considered BBG's internal control in determining the nature, timing, and extent of the audit tests
     applied in connection with our audit. Additionally, in accordance with Office of Management
     and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
     for those internal controls that were properly designed and placed in operation, we perfornled
     sufficient tests to support a low level of assessed control risk consistent with Statement on
     Auditing Standards No. 55, promulgated by the American Institute of Certified Public
     Accountants. Our consideration of internal control did not entail a detailed study and evaluation
     of any of its elements and was not made for the purpose of making detailed recommendations or
     evaluating the adequacy of the internal controls to prevent or detect all errors and irregularities.
     We have not considered internal control since the date of our report.

               BBG's management is responsible for establishing and maintaining intemal control. In
      fulfilling this responsibility, estimates and judgments by management are required to assess the
      expected benefits and related costs of internal control policies and procedures.

             The objectives of internal control are to provide management with reasonable, but not
     absolute, assurance about the achievement of the entity's objectives with regard to reliability of
     financial reporting, effectiveness and efficiency of operations, and compliance with applicable
     laws and regulations and to pennit the preparation of financial statements in accordance with the
     comprehensive basis of accounting described in OMB Circular A-136, Financial Reporting
     Requirements.
        Because of inherent limitations in any internal controls, errors or irregularities may occur
and not be detected. Also, projection of any evaluation of internal control to future periods is
subject to the risk that it may become inadequate because of changes in conditions or
deterioration in its operating effectiveness.

        Although the purpose of our consideration of internal control was not to provide
assurances thereon, matters came to our attention that we want to report to you. These matters
are discussed in Attachment 1. These matters do not affect our report, dated November 14, 2007,
on BBG's Financial Statements referred to above.

         This report is intended solely for the information and use ofBBG's management, the
Inspector General of the U.S. Department of State and Broadcasting Board of Governors, OMB,
Department of the Treasury, and Congress and is not intended to be and should not be used by
anyone other than those specified parties. This restriction is not intended to limit the distribution
of this report, which is a matter of public record.

Comments by BBG management on this report are presented as Attachment 2.

Very truly yours,




~     \ ... ?- ~.s--- .J--...
                                ()         \ . .\<:;:
Leonar G. Birnbaum and      com~~
Attachments: As stated.




                                                        2

                                                                        Attachment I
                                                                          Page I of 4

                       Management Letter Related to the

                 Audit of the Broadcasting Board of Governors

                     2007 and 2006 Financial Statements


                         Observations and Conclusions

I.	 Property, Plant, and Equipment

   During our interim testing of property, plant, and equipment, we found numerous
   instances in which BBG had not recorded property acquisitions and disposals in a
   timely manner. The majority of the errors represented acquisitions and disposals
   that had occurred in prior years but that had been recorded as current-year
   activity. BBG consolidated all property records into a single asset management
   system. It also corrected most of the errors we identified during the annual
   inventory process. However, we remain concerned about the controls over
   entering property data into the system. In addition, the asset management system
   is not integrated with the general ledger.

   Further, we noted several instances in which depreciation expense was
   inaccurately calculated and recorded because of differences in useful life,
   acquisition cost, and date differences between the asset management system and
   supporting documents for property items.

   We recommend that BBG

       •	 improve its controls over the timeliness of recording property data,
       •	 develop an interface between the asset management system and the
          general ledger, and
       •	 ensure that accurate and complete documentation related to capital assets
          is maintained.

2.	 Undelivered Orders

   Our testing of undelivered orders identified a projected overstatement of more
   than $7 million because a significant number of obligations had no activity for
   lengthy periods of time.

   We recommend that obligations be reviewed in a structured manner and on a
   regular basis to permit deobligation and reprogramming of unused amounts.
                                                                       Attachment 1
                                                                         Page2of4

3. Manual of Administration

   As noted in the FY 2006 management letter, BBG has not fully updated and
   issued its Manual of Administration. We received draft versions of several
   sections.

   We recommend that BBG update and finalize its Manual of Administration.

4. Government Purchase Cards

   Twelve of 20 cardholders sampled either had purchases with date errors or the
   dates were not arranged chronologically within the purchase log.

   One cardholder exceeded the 30-day spending limit for November 2006.

   Three of 20 cardholders sampled had individual statements of account that were
   not signed by either the cardholder or the approving official (AO).

   One cardholder's individual statement of account was signed by an AO who was
   not the designated and authorized AO for that cardholder.

   We recommend that BBG management institute effective intemal control and
   oversight procedures to deter and discover erroneous use of the government
   purchase card.
                                                                                                                  Attachment 1
                                                                                                                   Page 3 of 4


                     Table 1: Foliow-up on Observations From the FY 2006 Management Letter


rObservation Number
._--_.
                                                       FY 2006 Observation
                                                                                                        FY 2007
                                                                                                         Status
                                                                                                                            FY 2007 Comment


    1. Payroll                         BBG did not have copies of authorizations from               i    Closed
                                                                                                    I
                                                                                                    [
       Documentation                   some employees to support payroll deductions.


1 2 . Accounts                         Accounts Receivable was overstated as of year-end
                                                                                                I        Closed
      Receivable                       FY 2006. BBG did not consistently record
                                       receivables from reimbursable agreements, and
                                       collections were recorded in the general ledger but
                                       were not posted to the outstanding accounts
                                       receivable subsidiary ledger.


    3. Lack of Accounts                BBG did not maintain an accounts payable                          Open               This issue was a
       Payable Subsidiary              subsidiary ledger. The amounts included in the                                       significant
                                                                                               I[
       Ledger                          general ledger and ultimately the financial                                          deficiency in the
                                  ,I   statements represent the results of all transactions on                              Independent
                                       a rolling basis.                                                                     Auditor's
                                                                                                                            Report on the
                                                                                                                            Broadcasting Board
                                                                                                                            of Governors 2007
                                                                                                                            and 2006 Financial
                                                                                                                            Statements
                                                                                                    I
                                                                                                    I                       (AUD/FM-08-07).


    4. Property, Plant, and            BBG had not recorded property acquisitions and                    Open               See observation 1.
       Equipment                       disposals in a timely manner.
                                                                                                                   I
i
                                       In addition, the asset management system was not
                                       integrated with the general ledger.




    5. Deferred                        BBG did not report defened maintenance as a part                 Closed              BBG has
       Maintenance                     of Required Supplementary Infonnation.                                               implemented
                                                                                                                            procedures to repOli
                              I                                                                                             defen-ed
                                                                                                                            maintenance costs.

    6. Undelivered Orders              Testing of undelivered orders disclosed a significant             Open               See observation 2.
                                  I number of obligations that had no activity for                                     II
                                  I lengthy periods of time.
                                                                                                                       I

                                                                                                   Attachment 1
                                                                                                     Page 4 of 4


    Observation Number     I                  FY 2006 Observation
                                                                                         FY 2007
                                                                                          Status
                                                                                                             FY 2007 Comment         I
    7. Manual of               BBG had not completed updating its Manual of               Open               See observatIOn 3.
                                                                                                                                     I
       Administration          Administration.                                                                                       i
,



    8. Grants Management       A GAO Report dated August 4, 2006, Management             Closed           FY 2007 audit
                               ofMiddle East Broadcasting Service Could be
                                                                                                        , follow-up
                               Improved (GAO-06-762), recommended that BBG                                   determined that BBG
                               improve efficiency and operations of the Middle                               has made a
                               East Broadcasting Networks (MBN). For instance,                               significant effort to
                               BBG shonld fully implement strategic planning,                                improve efficiency
                               internal control, and regular program reviews as                              and operations at
                               well as address weaknesses in conducting and                         ,        MBN.                    II
                               reporting audience research.                                                                          ,


, 9. Information and           An OIG report dated September 2006, Review ofthe      I   Closed              BBG recognizes that
      Communication            Information Security Program at the Broadcasting                              additional work is
I                              Board of Governors (IT-I-06-04), disclosed that                               required as it
                               BBG was noncompliant with the Federal                                         continues to make
                               Information Security Management Act.                                          progress In
                                                                                                             integrating Chief
                                                                                                             Information Officer
                                                                                                             input in agency
                                                                                                             infonnation
                                                                                                             technology
                                                                                                             decisions.

    10. Government             Cardholders were not correctly entering purchase           Open               See observation 4.
        Purchase Cards         dates in their purchase logs. Cardholders seemed to
                               be using information from credit card statements to
                               complete the purchase logs instead of completing
                               the log when the purchase was made.                   i
                                                                                                        ,,
                               A number of payment vouchers for monthly credit
                               card statements could not be provided for several
i                              overseas transmitting stations.
                                                                                                           Attachment 2
                                                                                                             Page 1 of 4




                      BROADCASTING HOARD OF GOVERNORS
                      UNITED STAIT~ OF AMERICA




              February 12,2008


              1"lark W. Duda

              Assistant Inspector General for         Audi~

              Office of Inspector Genera!

              Department of State

              Wnshington D.C. 20522-0308



              Dear Mr. Duda:

              Thi;; is in response to your request for comment:; on the draft management letter related
              to the audit oftl1e Broadcasting Boord of Governors' 2007 and 2006 financial stakments.
              We have reviewed the ohsen'utions and conclusions of the independent contractor,
              Leonard G. Birnbaum and Comp,my, LLP, :md in Ule attachment provide detailed
              rc.sponscs to each of the issues identified by the auditors.

              1 assure you that \ve take the rccommcndutioID seriously <md will monitor the pn>grcss
              made to address each recommendation.

              "1113nk you for the opportunity to respond.




           q;;~~w}?L~_____
              Janet K. Stormes

              Chief Financial Officer



             Attacrunent: As            ~1atcd




:t,(\ Ii'll )EI'EN1JENCE AV ,:NVE, sw      ROOM 31m   COHE,"I llUI1.llJNG   \\A.C,IIINGf(jN.llC :!fJ2:l7
                                                                                            Attachment 2
                                                                                              Page 2 of 4




                            Broadcasting Board of Governors
                             Audit of Financial Statements
                              September 30, 2006 and 2007

              BUG Responses tn the Audit Observations and Conclusions


1. Proncrt\'. Plant and EQuipment (PPE)

Audit Recommendation:
We rewmmcnd that BBG:
       improve its controls over tht: timeliness of recording property data,
   '" Develop an interface hetween the asset management system tl11d the general
       ledger, and
       Ensure that w..:curatc Clnd complele documentation related to capital assets is
       maintained.

BBG Response:
The BBG has improved its controls regarding the proper and timely recording. of property
data. (h January IS, 20GS, the fiBG adopted imponant changes to its prE lvbllUil! of
Operations and Administration (MOA) establishing an Agency Propeny !vtanagement
Oftke to assist Property Control Of1iccrs ,md Accountable Officers manage their
proJlcrty and update the Property Inventory Processing System (PIPS). 'fhe MOA
establishes procedures to ensure incoming deliveries ure properly and timely recorded in
the I'll'S system, quanerly entries are made for asset acquisitions. dispositions and
dcpn~cidion, and physical inventories ure conducted annually. The \!lOA for prE also
sets requirements for document retention and verificatlon. Additionally. the RBG has
assigned specific responsibilities for documentation maintenance 10 Property Control
OfTIcers and Accountable Officers.

The BBG is also implementing Momentum as its financial management system. This
system will provide improved recurding of the cost of property acquisitions within the
fimmcial system. TI1e BBG has established a single Property Management Ofliee that
works in close coordination with the Office Dfthe CFO to update the General Ledger on a
quarterly basis and provide accurate and timely reporting of prE.

2. Undelivered   Order,~


Audit R.::eommcndation:
We reccmmend that obligations be reviewed in a slructured manncr and on a regular
basis to permit dcobligation and reprogramming ofurlUscd amounts.

SBG Rt,sponse:
The BBG has taken proactive and measurable steps in addressing tiils issue. The Office
of the CFG ha" continued to facilitate and lead the detailed review of open ()bligatlons.
The Office of the CFO reviews all open orders and works with tbe program ol1ices tf]
                                                                                              Attachment 2
                                                                                                Page 3 of 4




recundl:. the open orders, To facilitate the reconciliation, the Office of the CFO
dis'lribUles Open obligation reports to the program offixcs. The Oflice of the CFO has
mouitoed the progress of the reconciliatlon of the open obligations ami met with e<lch
Admindratjve Officcr to re,iew the open obligations. These steps were repeated
throu.ghout FY 200? with increasing frequency at the end of FY 2007. and continued in
the first quarter ofFY 2008. As a result of this effort, we have reduced our unliquidated
obligations by $6.0 million.

We are impkmcnting Momentum financial management system in 2008. This new
system will combine our acquisition., budgeting, and general ledger applications under an
imegrated system facililating reconciliation ,md management of the Agmcy's obligations.

3. Manual of Administration

Audit   R~commendation:
We recommend that BBG update und finaliz.e its Manual of Administratioll.

BEG Respollse:
The Manual of Administration (MOA) is a living document, upililted as required by
ch.1nges in policies, rules and regulations. The BBG has procedures to review and update
the MO/>.. Policy and organizational changes arc numbered and cataloged according to
the year implemented. Each clement head is responsible for reviewing the portion of the
MOll that pertains to their function <md ensuring it is current and rdkcts appropriate
Icgislali·/e changes. During FY2007, we finalized several sections including: (1) Cash
Management; (2) Payroll, Time and Attendance, and Leave Accounting; (3) Debt
Manage;.nent; and (4) Grants and Other Financial Assistance. We rel.:ently updated our
1\10;'\ on Property Plant and Equipment and are revic·wing the sections covering Travc1
and Payments. Updates to these sections will he posted in FY 2008,

In nddition, the International Broadcasting Bureau Deputy Director ls establishing un
agellcy-',Vide task force to review and improve the process for updating all Agency
policies and procedures in the MOA. The lask force members represent all Agency
ofticcs, ;ll1d will begin meeting in mid-February.

4. Government Purchase Cards

Audit R,:commendalion:

We re-commend that BBG management institute effectivc internal control and oversight

proeedu:·cs to detcl' and discover erroneous use of the government purchase card.


BRG Response:

BBG policy requires that all credit card statcment,>. purchase logs, and rect:ipts be

submitted to the Office of Financial Operations lmd reconciled on a monthly busis B13G

is implementing the credit ea;d module in its new Momentum financiallvlanugement

System. This \...·ill enhance controls by preventing the posting of entries on unrcconcikd

credit CHId accounts.

                                                                                                Attachment 2
                                                                                                  Page 4 of 4




n,e Oriee of Contracts oversees the government purchase card program and establishes
limits cn the amount for individual transactions and 30 day spending limits on individual
canis. The Office of Contracts also conducls random reviews of the purchase logs
ensuring that they arc properly prepared and authorized, Finally, ([Ie BBG contnJets with
an inde?endent auditor to review our purchase card program annually. The independent
auditor recently began its sewnd audit of the program.

Additiunal Observations from the FY 2006 Management Letter


Lack of Accounts Pavuhlc Subsidhlry

Audit Observation:

BBG docs not maintain an accounts payubh: subsidiary ledger. The ruTIounts incJudc:d in

the genaal ledger and uJtimatdy the llnancial statements represent the results of all

transactions on a rolling basis.


BBG R~sponsc:

The Oftice of}'immcial Opermions is in constant contact wiih the Stale Dcpm1ment to

ensure that all the misslngfiJes are loaded into BFMS so that \'ie arc able to lake the

appropriate steps to purge our uccounts payable database of offsetting ilmounl~ in order to

establish the surrogate accounts payable subsidtury record.


The Oftiee ofFinanciaJ Operations and State Department have identified approximately

UOO transactions, which were loaded inI0 thc test region ofBFMS, State Dep:mment is

analyzing these transactions to determine tfthey are correctly fonnatted and ensure the

data are not r~iected. "111cre are approximately 50 addition::!! transactions lh'lt require

further research and manual entry into the test region. Once lhe~c entries ,<,.Ie validated,

they wiil be loaded into BFlvfS. We expect to have the entries in BFMS by i\:1arch 3!,

2008.

